HHS/OIG, Audit -"Review of Regence HMO Oregon's Modifications to Its 2001 Adjusted Community
Rate Proposal Under the Benefits Improvement and Protection Act of 2000,"(A-10-03-00011)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Regence HMO Oregon's Modifications to Its 2001 Adjusted Community Rate Proposal Under
the Benefits Improvement and Protection Act of 2000," (A-10-03-00011)
April 26, 2005
Complete
Text of Report is available in PDF format (480 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether Regence supported modifications to its 2001 adjusted community
rate proposal under the Benefits Improvement and Protection Act (BIPA) of 2000 and used the additional
capitation payments in a manner consistent with BIPA requirements.  Of the capitation payment
increase in Regences revised proposal, about $15.4 million was supported in the proposals modifications
and was used in a manner consistent with BIPA requirements.  However, we found (1) Regence did
not provide adequate support for approximately $6.8 million in increased payments in the proposals
modifications and we could not determine how much of the amount was used in a manner consistent with
BIPA requirements and (2) about $0.5 million was supported in the proposals modifications but not
used in a manner consistent with BIPA requirements.  We recommended that Regence (1) work with
CMS to determine what portion of the about $6.8 million in increased payments was not used in a manner
consistent with BIPA requirements and refund that amount to the Federal Government (2) refund the about
$0.5 million to the Federal Government that was not used in a manner consistent with BIPA and (3) ensure
that all estimated costs in future proposals are properly supported and used in a manner consistent
with Federal requirements.  Regence did not concur with our findings and recommendations.